Department of Homeland Security
   Ofﬁce of Inspector General

            Coast Guard's Blueprint for Acquisition 

              Reform Needs Improved Oversight 





OIG-10-84                                               April 2010
                                                            Office ofInspector General
                                                            u.s. Department of Homeland Security
                                                            Washington, DC 20528



                                                             Homeland
                                                             Security
                              APR 26 2010


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (DIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the U.S. Coast Guard's implementation of its Blueprint for
Acquisition Reform. The report is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                              .~~.F,(.•• ~
                                      Richard L. Skinner

                                      Inspector General

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................3
 


     Better Measures Needed to Assess Acquisition Improvements ....................................3 


     Prioritization of Action Items Needed ...........................................................................4 


Recommendations................................................................................................................5
 


Management Comments and OIG Analysis ........................................................................6 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.........................................................8 

     Appendix B:           Management Comments to the Draft Report .........................................9 

     Appendix C:           Development and Tracking of Blueprint Action Items........................12 

     Appendix D:           Prior Reports Related to Coast Guard Acquisition Reform .................13 

     Appendix E:           Major Contributors to This Report ......................................................14 

     Appendix F:           Report Distribution ..............................................................................15 



Abbreviations
     Blueprint             Blueprint for Acquisition Reform / Blueprint for Continuous
                           Improvement 

     DHS                   Department of Homeland Security 

     GAO                   Government Accountability Office 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     The Coast Guard began realigning its acquisition function in 2007
                     in response to issues reported by our office and the Government
                     Accountability Office. The Coast Guard’s Blueprint for
                     Acquisition Reform sets forth objectives and specific action items
                     for improving its acquisition function and contracting capabilities.
                     We conducted this audit to determine the progress the U.S. Coast
                     Guard has made in implementing its Blueprint.

                     The Coast Guard can improve Blueprint implementation oversight
                     by (1) establishing a method to measure outcomes of completed
                     Blueprint action items, and (2) prioritizing the action items. The
                     Coast Guard uses the percentage of Blueprint action items
                     completed to report accomplishment, even though this information
                     does not measure improvements to acquisition functions. The
                     Coast Guard also has not established priorities for initiating or
                     completing the action items or evaluated the impact of missed
                     completion milestone dates. As a result, the Coast Guard may not
                     have an accurate assessment of its progress in improving its
                     acquisition function.

                     We are recommending that the Coast Guard establish better
                     measures and priorities for successful implementation of its
                     Blueprint for Acquisition Reform. The Coast Guard concurred
                     with the recommendations and has taken action to implement
                     them.




      Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                             Page 1 

Background
                         Over the past 5 years, the Government Accountability Office
                         (GAO) and the Department of Homeland Security Office of
                         Inspector General (OIG) have issued a number of audit reports
                         citing systemic issues in the Coast Guard’s systems acquisition
                         function and structure related to effective program management,
                         contractor oversight, adequate staffing, data tracking, and
                         performance measures (see Appendix D). As a result, in 2007, the
                         Coast Guard began realigning its acquisition function.

                         To enhance mission execution, the Coast Guard developed a
                         Blueprint for Acquisition Reform (Blueprint), which sets forth a
                         number of specific tasks for improving the acquisition function and
                         contracting capabilities. The Blueprint consists of action items in
                         four major areas defined by the GAO Framework for Assessing the
                         Acquisition Function at Federal Agencies.1 The framework
                         provides general guidance to evaluate an agency’s acquisition
                         function and identifies areas that need improvement. The
                         following four major areas are included in the framework:

                         Organizational Alignment: Focuses on organizational placement
                         and effectiveness of the acquisition function to ensure that it
                         continues to provide needed services.

                         Policies and Processes: Develops the Coast Guard’s acquisition
                         management functions to support the acquisition mission
                         efficiently and consistently.

                         Human Capital: Documents the Acquisition Directorate’s
                         strategy for hiring, training, and retaining a workforce with the
                         necessary skills, certifications, and experience to manage and
                         monitor complex acquisition programs.

                         Information Management and Stewardship: Documents the
                         Acquisition Directorate’s efforts to collect, analyze, and act on
                         data that identify opportunities to reduce costs, improve
                         performance, measure contract compliance, and provide better
                         management of acquisition investments.




1
 Framework for Assessing the Acquisition Function at Federal Agencies, GAO-05-218G, September 2005.
The GAO Framework is included in the Office of Federal Procurement Policy’s Guidelines for Assessing
Acquisition Function, May 2008.


         Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight

                                               Page 2
                     The Coast Guard publishes an updated Blueprint annually, making
                     it available to the public on the Coast Guard website, and provides
                     copies to Congress, DHS, GAO, and the Office of Management
                     and Budget.

Results of Audit
     The Coast Guard can improve Blueprint implementation oversight by
     (1) establishing a method to measure outcomes of completed Blueprint action
     items, and (2) prioritizing the action items. The Coast Guard uses the percentage
     of Blueprint action items completed to report accomplishment, even though this
     information does not measure improvements to acquisition functions. The Coast
     Guard also has not established priorities for initiating or completing the action
     items or evaluated the impact of missed completion milestone dates. As a result,
     the Coast Guard may not have an accurate assessment of its progress in improving
     its acquisition function.

     Better Measures Needed to Assess Acquisition Improvements
             The Coast Guard has not instituted a methodology, including baselines
             and overarching program goals, against which to accurately assess and
             report on overall improvements to its acquisition function. Instead, the
             Coast Guard measures Blueprint implementation progress based on the
             number of action items completed.

             The Coast Guard annually develops the Blueprint action items based on
             suggestions for improvements and best practices and then assigns the action
             items to acquisition personnel for completion. The Coast Guard uses input
             from program managers, division chiefs, and office chiefs to establish
             accountability and the estimated completion date for each action item. The
             Coast Guard also has a process for closing and verifying completion of the
             action items and determining next steps (see Appendix C).

             Personnel in the Office of Strategic Planning and Communications report
             progress in completing action items to the Assistant Commandant for
             Acquisition and the Vice Commandant on a biweekly basis. In these
             reports, the Coast Guard uses the total number of completed action items
             to measure the progress toward improvement of the acquisition function.
             The Coast Guard uses this simplified measurement approach because it
             allows accomplishments to be measured and action item completion to be
             verified.

             In the current version of the Blueprint, dated July 2009, the Coast Guard
             noted it had completed 131 of 215 (61%) action items. They include the
             following:


      Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight

                                            Page 3
            �	 Reorganizing and aligning responsibilities by creating a single
               acquisition office that manages all projects,
            �	 Developing the Acquisition Human Capital Strategic Plan,
            �	 Updating the Major Systems Acquisition Manual used for
               managing projects in the new organization,
            �	 Developing project management information systems, and
            �	 Certifying all program and project managers with the proper
               program management skill level required to manage projects.

        In the fourth version of the Blueprint issued in July 2009, the Coast Guard
        changed the title to Blueprint for Continuous Improvement in recognition
        of the incremental improvements made.

        Measuring action items completed does not provide the Coast Guard with
        an accurate assessment of progress. The Coast Guard may be overstating
        its accomplishments by measuring outputs instead of performance
        outcomes. For example, the Coast Guard initiated an effort to adopt
        tenure service agreements for employees by the first quarter of Fiscal Year
        2011. One of the action items was to perform initial research on the
        feasibility of adopting the service agreements. Another action item was to
        draft a memorandum proposing the service agreements to the Coast
        Guard. Although both action items were reported as completed, the new
        service agreements have not yet been adopted.

        In another example, the Coast Guard wanted to expand and build upon
        existing surveys to solicit views on the effectiveness of communications,
        acquisition processes, and other areas needing improvement. The Coast
        Guard closed the action after redesigning the customer and employee
        survey questionnaires and included the action in its overall measure of
        accomplishment. However, the Coast Guard did not distribute the survey,
        analyze the results, or use the results to improve communications and
        acquisition processes. Because developing the survey alone did not
        accomplish the objective of soliciting customer and employee views, the
        Coast Guard overstated its progress toward improvement by identifying
        this as a completed action.

Prioritization of Action Items Needed
        The Coast Guard does not establish priorities among the action items or
        identify interrelationships and the sequence for accomplishing tasks in a
        building block approach. The Coast Guard monitors individual action
        items only to ensure that they meet their assigned completion dates. Staff
        members may revise action item completion dates without evaluating the
        effect on other action items or the overall improvement program. The


 Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight

                                       Page 4
       Coast Guard scheduled 158 action items for completion by the end of
       Fiscal Year 2009, of which 36 (23%) were rescheduled without
       determining the impact on acquisition improvements.

       For example, an action item scheduled for completion in the second
       quarter of Fiscal Year 2008 was extended twice and rescheduled for the
       first quarter of Fiscal Year 2010. The Coast Guard completed this
       fundamental action item on December 23, 2009. This action item was to
       examine existing infrastructure in order to allow executive leadership to
       establish an appropriate forum to promote integration and coordination
       among the agency’s budgetary processes and human capital, acquisition,
       and financial management functions. Extending the completion date may
       put a critical acquisition operating process at risk because of the delay in
       coordinating these functions.

       The Coast Guard stated that quarterly meetings are held with the Office of
       Strategic Planning and Communications and the Assistant Commandant
       for Acquisition to report and discuss progress, delays, and rescheduling of
       action items. Though the goal of these quarterly meetings is to review
       action items and prioritize work, the Coast Guard did not justify any
       schedule changes or decisions made during these meetings. If a particular
       action item is not completed during the year, the Coast Guard does not
       revise the action item completion date until the annual review of the
       Blueprint.

       Recommendations
               We recommend that the Commandant, U.S. Coast Guard:

               Recommendation #1: Establish a more effective methodology for
               assessing progress in implementing the Blueprint for Acquisition
               Reform by measuring outcomes and not outputs.

               Recommendation #2: Establish priorities among the action items,
               identifying interrelationships and the sequence for accomplishing
               tasks in a building block approach.

               Recommendation #3: Evaluate and take corrective actions to
               mitigate the effect of delayed completion of action items on
               acquisition reform.




Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                       Page 5 

       Management Comments and OIG Analysis
               The Coast Guard concurred with two of the recommendations and
               partially concurred with the remaining recommendation in the
               report. The Coast Guard has begun formulating plans to implement
               the recommendations contained in the report.

               Management Comments to Recommendation 1:

               The Coast Guard concurred with our recommendation to establish
               a more effective methodology for assessing progress in
               implementing the Blueprint for Acquisition Reform by measuring
               outcomes and not outputs. The Coast Guard stated that a plan is
               being developed to implement baseline measurements and increase
               the effectiveness of outcome reporting. In the next revision of the
               Blueprint, the Coast Guard will align all action items with specific
               goals for the acquisition enterprise and measurable performance
               objectives to provide traceability. The Coast Guard is continuing
               its research for additional ways to refine measurements for action
               item outcomes and long term effects on the acquisition enterprise.

               OIG Analysis

               We consider this recommendation resolved and open until plans to
               implement baseline measurements and increase the effectiveness
               of outcome reporting are developed and implemented.

               Management Comments to Recommendation 2:

               The Coast Guard concurred in part with our recommendation to
               establish priorities among the action items, identifying
               interrelationships and the sequence for accomplishing tasks in a
               building block approach. The Coast Guard stated that action items
               in the current and past editions of the Blueprint were prioritized
               based on due dates established during senior leadership discussion
               sessions. In the next update to the Blueprint for Continuous
               Improvement, the Coast Guard will systematically prioritize action
               items based on established criteria. Additionally, the Coast Guard
               is working to modify the Blueprint action plan to better
               demonstrate interrelationships and sequencing of action items as
               they relate to acquisition enterprise goals and their measurable
               performance objectives.

               The Coast Guard disagrees that staff may be revising action item
               completion dates without evaluating the effect on other action


Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight

                                      Page 6
               items or the impact on the overall improvement program. During
               the annual leadership discussion sessions, Acquisition Directorate
               senior leadership, office and division chiefs, and members of the
               Senior Executive Service review each request to change an action
               item completion date, including justification provided by the action
               owners.

               The Coast Guard further stated that in the future, the prioritization
               process will be systematically documented and published to
               increase transparency, including full documentation of all changes
               to the previously established completion dates.

               OIG Analysis

               The Coast Guard acknowledges that the process for prioritization
               can be more transparent. Our review of action items disclosed that
               over 20% of assigned completion dates slipped without full
               documentation of the reasons for these decisions. The actions
               taken by the Coast Guard to systematically document the process
               for prioritizing action items and to make the process more
               transparent addresses the intent of our recommendation. We
               consider this recommendation resolved and open until systematic
               documentation and publication of the prioritization process is
               completed.

               Management Comments to Recommendation 3:

               The Coast Guard concurred with our recommendation to evaluate
               and take corrective actions to mitigate the effect of delayed
               completion of action items on acquisition reform. The Coast
               Guard stated that in future editions of the Blueprint, it will clearly
               prioritize and link action items to specific goals and measureable
               objectives, enabling Coast Guard leadership and action item
               owners to better understand the impact of postponing action items.
               Action item owners will be required to provide a detailed impact
               statement for a delayed action item to enhance transparency, so
               Coast Guard leadership can make informed decisions on whether
               to delay completion of an action item.

               OIG Analysis

               We consider this recommendation resolved and open until new
               requirements described above are incorporated into the next
               version of the Blueprint.



Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight

                                      Page 7
Appendix A
Purpose, Scope, and Methodology

                      The purpose of this audit was to determine the progress the U.S.
                      Coast Guard has made in implementing its Blueprint, including
                      reasons for not meeting pre-established milestones. We reviewed
                      internal controls pertinent to our overall objective. We analyzed
                      supporting documentation for select action items implemented,
                      interviewed key personnel, and observed operations for several
                      management information systems.

                      During our audit, we visited the U.S. Coast Guard Acquisition
                      Directorate in Washington, D.C. We reviewed U.S. Coast Guard’s
                      implementation of action items in the different Blueprint versions.

                      �	 Blueprint for Acquisition Reform, Version 2, dated July 2007
                      �	 Blueprint for Acquisition Reform, Version 3, dated July 2008
                      �	 Blueprint for Continuous Improvement, Version 4, dated July
                         2009

                      We selected a judgmental sample of 28 of 132 action items in the
                      Blueprint based on action items in the four major areas defined by
                      the GAO Framework. Of the 28 action items selected, we
                      reviewed 8 that were reported closed in Version 3, 9 that should
                      have been completed in Version 3 by the time of our review, and
                      11 reported closed in Version 4. Our review included the
                      scheduling and prioritization of action items, analysis of
                      supporting documentation, and observation and testing of the
                      completed action items.

                      We reviewed the development and tracking of Blueprint action
                      items; Major Systems Acquisition Manual updates for action items
                      selected; Program and Project Manager certification for projects;
                      compared and analyzed scheduled completion dates for action
                      items in Blueprint Versions 2, 3, and 4 and actions taken to ensure
                      that internal controls for the new organization are in place,
                      monitored, and tested.

                      We conducted this performance audit between July and November
                      2009 under the authority of the Inspector General Act of 1978, as
                      amended, and according to generally accepted government
                      auditing standards. Those standards require that we plan and
                      perform the audit to obtain sufficient, appropriate evidence to
                      provide a reasonable basis for our findings and conclusions based
                      on our audit objectives. We believe that the evidence obtained
                      provides a reasonable basis for our findings and conclusions based
                      on our audit objectives.


       Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                              Page 8 

Appendix B
Management Comments to the Draft Report




         U.S. Department
         Homeland        o~"
                   Security
                                              Commandant
                                              Uniu,d SlalCS Coast Guard
                                                                                   2100 Second Streel. S, W" SlOp 7245
                                                                                   Washington, DC 20593.()1)())
                                                                                   SlaffSymbol:CG-823
                                                                                   Phone: (202) 312-3533
         United Stat88                                                             Fax: (202) 372-2311
         Coast Guard
                                                                                   7501
                                                                                  APR - 7 2010
         MEMORANDUM
        From: T. W. JONES, CAPT /,                                        Reply to Audit Manager,
              COMDT (CG-82)                                               Attn of: Mark Kulwicki
                                                                                   (202) 372-3533
        To:     Assistant Inspector General for Audits
        Subj:   RESPONSE TO DRAFT REPORT, "COAST GUARD'S BLUEPRINT FOR
                ACQUISITION REFORM NEEDS IMPROVED OVERSIGHT'
        Ref:    (a) Office of the Inspector General (OIG) Draft Report of March 2010

        1. This letter transmits the Coast Guard's response to the Office of Inspector General's (OIG)
        draft report findings and recommendations in reference (a).

        2. Coast Guard concurs with recommendations #1 and #3, and concurs in-part with #2.
        Recommendations will be addressed in the next revision of the Blueprint in summer 2010.

        3. Ifyou have any questions, my point of contact is Mr. Mark Kulwicki at (202) 372-3533.
        Alternately, our Chief of Extemal Coordination in the Office ofBudget & Programs,
        Commander Todd Offutt, can be reached at (202) 372-3535.

                                                           #

        Enclosure: (1) USCG Comments




       Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                                       Page 9
 

Appendix B
Management Comments to the Draft Report




                          UNITED STATES COAST GUARD (USCG) RESPONSE
                          ON THE DEPARTMENT OF HOMELAND SECURITY
                               lNSPEcrOR GENERAL DRAFT REPORT

            TITLE: "Coast Guard's Blueprint for Acquisition Reform Needs Improved
            Planning and Oversight"

            COAST GUARD'S GENERAL COMMENTS ON DRS OIG FINDINGS:

            The Coast Guard concurs with the draft report's three recommendations and has been
            working to address them in the next revision of the Blueprint (summer 201 0). Through
            the Blueprint and complemenlary strategies. policies and processes, the Coast GWU'd is
            fully committed to the evolution and correct alignment of authority and responsibility in
            its acquisition enterprise. The Coast Guard looks fOlWard to continuing to refine these
            efforts to ensure that they meet the expectations ofstakeholders, which includes the OiG,
            Congress and others.

            The Coast Guard values and recognizes that the Blueprint and its action item matrix are
            constantly evolving tools for planning, executing and assessing progress in the service's
            acquisition enterprise. In addition to the findings noted in the report, the Coast Guard
            recommends that the OIG report acknowledge the Coast Guard has demonstrated a
            commitment to oversight of Blueprint for Continuous Improvement implementation by
            developing a strategic planning process that incorporates feedback from stakeholders,
            provides visibility to Coast Guard leadership and validation of action oompletion, as
            shown in Appendix C ofthe subject draft report.

            Recommendations
            OIG RecommendatioD #1: Establish a more effective methodology for assessing
            progress in implementing the Blueprintfor Acquisition Reform by measuring outcomes
            and oot outputs.

            USCG Response: Concur. The Coast Guard is developing a pian to implement baseline
            measurements and increase effectiveness of process outcome reporting. In the next
            revision of the Blueprint, the Coast Guard will align all action items with specific goals
            for the acquisition enterprise. The acquisition enterprise goals will have measurable
            perfonnance objectives to provide trnceability between completion of action items and
            achievement of goals. The Coast Guard is also continuing its research for additional
            ways to refine how it measures action item outcomes and long term effects on the
            acquisition enterprise.




       Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                                 Page 10
 

Appendix B
Management Comments to the Draft Report




             OIG ReeomRl~DdatioD#2: Establish priorities among the action items, identifying
             interrelationships and the sequem:e for aODOfl1plishing tasks in a buikling block approach.

             USCG Response: Concur in part. Action items in currmt and past editions of the
             Blueprint arc prioritized based on due dates established during senior leadmhip
             discussion sessions. In the next update to the Blueprinlfor Continuous Impro~l, the
             Coast Guard will systematically prioritize action items based on established criteria.
             Additionally, the Coast Guard is working 10 modify the Blucprinl action plan to bette:.-
             demonstrate intc:rn:latiooships and sequencing of action items as they relate to acquisition
             enterprise goals and their measurable performance objectives.

            1beCoast Guard disagrees with the finding that staff may revise action item completion
            dates without evaluating the effed on other action items or the overall improvement
            program. During the annual leadership discussion sessions, CG-9 Senior L.eadership,
            Office and Division Chiefs, and mcmbersofthe Senior Executive Service, review each
            request to change an action item completion date, including justification provided by the
            action owners.

            In the futu:re, the prioritization process will be systematically documented and published
            10 increase transparency, including full documentation ofall changes 10 the previously
            established completion dates.

            OIG R«omm~lId.tioD#3: Evaluate and take corrective actions to mitigate the effed of
            delayed completion of action items on acquisition reform.

            USCG Response: Concur. In future editions of the Blueprint, the Coast Guard will
            clearly prioritize and link action items to specific goal~ and mea.'1urable objectives,
            enabling Coast Guard leadership and action item owners to better understand the impact
            of postponing action items. Action owners will be required 10 provide a detailed impact
            statement for a delayed action item to enhance transparency so Coast Guard leadership
            can make informed decisions on whether 10 delay completion of an action item.
            With respect to extending completion dates, the Coast Guard completed action items as
            soon as practicable based on necessary coordination and collaboration with related
            offices. In some cases, action could not be completed until the Mission Support
            Organization, which is the acquisition enterprise's parent organization in the chain of
            command, was established and labor relations negotiations were completed in June 2009.
            Afterwards, the Coast Guard chartered an Executive Oversight Council to coordinate key
            acquisition and financial management functions across the Mission Support Organization
            llrld with other key Coast Guard stakeholders.




       Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                                  Page 11
 

Appendix C
Development and Tracking of Blueprint Action Items

This flowchart shows the process for the tracking and closing of action items for the Blueprint. The Coast Guard gathers suggestions
from all acquisition personnel for potential action items to improve the acquisitions functions. The Office of Strategic Planning and
Communications, CG-925, compiles the suggestions. Program managers review the action items for recommendation to the
Commandant. After approval by the Commandant, the Coast Guard publishes the action items in the Blueprint. The Office of
Strategic Planning and Communication also tracks the completion of the action items and reports progress to the Assistant
Commandant for Acquisition and the Vice Commandant on a biweekly basis.




Source: U.S. Coast Guard



                               Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight

                                                                     Page 12
Appendix D
Prior Reports Related to Coast Guard Acquisition Reform


                          Report Title                                            Date Issued
Contract Management: Coast Guard’s Deepwater Program                             March 9, 2004
Needs Increased Attention to Management and Contractor
Oversight, GAO-04-380
Coast Guard: Deepwater Program Acquisition Schedule Update                       June 14, 2004
Needed, GAO-04-695
Coast Guard: Preliminary Observations on the Condition of                        April 20, 2005
Deepwater Legacy Assets and Acquisition Management
Challenges, GAO-05-307T
Coast Guard: Changes to Deepwater Plan Appear Sound, and                         April 28, 2006
Program Management Has Improved, but Continued Monitoring
is Warranted, GAO-06-546
Improvements Needed in the U.S. Coast Guard’s Acquisition and                   August 11, 2006
Implementation Deepwater Information Technology System,
OIG-06-55
Acquisition of the National Security Cutter, OIG-07-23                          January 23, 2007
110’/123’ Maritime Patrol Boat Modernization Project,                           February 9, 2007
OIG-07-27
Coast Guard: As Deepwater Systems Integrator, Coast Guard Is                      July 14, 2009
Reassessing Costs and Capabilities but Lags in Applying Its
Disciplined Acquisition Approach, GAO-09-682

To obtain copies of GAO reports, visit www.gao.gov.

To obtain copies of OIG reports, visit www.dhs.gov/oig.




        Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                              Page 13 

Appendix E
Major Contributors to This Report

                      Brooke Bebow, Director
                      Carlos Berrios, Audit Manager
                      Jeanette Hyatt, Auditor
                      Kevin King, Auditor
                      Rebecca Mogg, Program Analyst
                      Lindsay Kirchoffner, Program Analyst
                      James Bess, Referencer
                      Lorinda Couch, Desk Officer




       Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                             Page 14 

Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      U.S. Coast Guard
                      Commandant
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




       Coast Guard’s Blueprint for Acquisition Reform Needs Improved Planning and Oversight 


                                             Page 15
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
